TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                  Control Weaknesses Over Amended Returns
                  Allowed Some Inappropriate Claims for the
                  First-Time Homebuyer Credit to Be Allowed



                                           June 24, 2011

                              Reference Number: 2011-41-057




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS

                                                     Income Tax Returns (Forms 1040X) are
CONTROL WEAKNESSES OVER                              appropriately processed.
AMENDED RETURNS ALLOWED SOME
                                                     WHAT TIGTA FOUND
INAPPROPRIATE CLAIMS FOR THE
FIRST-TIME HOMEBUYER CREDIT TO                       The IRS has taken a number of positive steps to
BE ALLOWED                                           process Homebuyer Credits claimed on
                                                     amended returns. Primary among these was
                                                     development of criteria to identify amended
Highlights                                           returns with questionable claims before they are
                                                     processed. However, additional issues need to
Final Report issued on June 24, 2011                 be addressed for claims of the Homebuyer
                                                     Credit on amended returns.
Highlights of Reference Number: 2011-41-057          Taxpayers inappropriately changed their home
to the Internal Revenue Service Commissioner         acquisition date to avoid repayment of their
for the Wage and Investment Division.                Homebuyer Credits. Some taxpayers received
                                                     multiple refunds of the Homebuyer Credit. Many
IMPACT ON TAXPAYERS
                                                     questionable claims for the Homebuyer Credit
Homebuyers who purchased a home in 2008,             were not appropriately sent to the IRS’s
2009, or 2010 may be able to take advantage of       Examination function for scrutiny.
the First-Time Homebuyer Credit (Homebuyer
                                                     TIGTA also found that the IRS paid an estimated
Credit). The Homebuyer Credit may be an
                                                     $37 million in interest on claims for the time
interest-free loan or a fully refundable Credit
                                                     period prior to actual home purchase dates. It is
depending on when the taxpayer purchased his
                                                     unclear whether Congress intended for this
or her home. Questionable Homebuyer Credits
                                                     interest to be paid. Finally, some claims for the
totaling millions of dollars in refunds as well as
                                                     Homebuyer Credit were significantly delayed.
additional interest amounts were issued on
amended claims.                                      WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA recommended that the IRS ensure that
                                                     taxpayers changing the year of purchase or
The Homebuyer Credit as expressed in the
                                                     receiving more Homebuyer Credit than they are
Housing and Economic Recovery Act of 2008
                                                     entitled to are identified and invalid claims are
has been revised and extended by three
                                                     recovered through examinations. The IRS
subsequent bills. Taxpayers may be confused
                                                     should also ensure that employees are provided
regarding which version of the Homebuyer
                                                     proper training and perform quality reviews of
Credit they qualify for and specifics on how to
                                                     Homebuyer Credit claims. The IRS should
claim the Credit. Also, unscrupulous individuals
                                                     identify interest-related issues on any future
may make fraudulent claims for the refundable
                                                     legislation and work with the Department of the
Homebuyer Credit.
                                                     Treasury’s Office of Tax Policy to request
The President of the United States has called on     clarification from Congress if warranted.
Federal agencies to ensure that recovery funds       Further, the IRS should ensure that timeliness
are used for authorized purposes and that every      standards are adhered to when cases are
step is taken to prevent fraud, waste, error, and    referred to the Examination function.
abuse. The Internal Revenue Service (IRS)
                                                     IRS management agreed with our
faces significant challenges to ensure that
                                                     recommendations and has initiated appropriate
recovery funds it administers are used for
                                                     corrective actions.
authorized purposes. This report contains the
results of our audit to determine whether the IRS
has controls in place to ensure that Homebuyer
Credits claimed on Amended U.S. Individual
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 24, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Control Weaknesses Over Amended Returns
                                 Allowed Some Inappropriate Claims for the First-Time Homebuyer
                                 Credit to Be Allowed (Audit # 201040140)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) had controls in place to ensure that First-Time Homebuyer Credits claimed on Amended
 U.S. Individual Income Tax Returns (Forms 1040X) were appropriately processed. This audit is
 included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenges of Implementing Health Care and Other Tax Law Changes and Erroneous and
 Improper Payments and Credits. It presents selected information related to the IRS
 implementation of Section 1006 of the American Recovery and Reinvestment Act of 2009
 (Recovery Act).1
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                Control Weaknesses Over Amended
                         Returns Allowed Some Inappropriate Claims for the
                            First-Time Homebuyer Credit to Be Allowed




                                              Table of Contents

Background .......................................................................................................... Page 1
Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Implemented Several Key Controls
          for Processing Amended Homebuyer Credit Claims .................................... Page 3
          Some Taxpayers Changed Their Home Acquisition Dates to
          Inappropriately Take Advantage of New Tax Law Changes........................ Page 4
                     Recommendation 1:........................................................ Page 7
          Some Taxpayers Received Multiple Homebuyer Credits
          That Exceeded the Amounts Allowed by Law ............................................. Page 7
                     Recommendation 2:........................................................ Page 9
          Not All Questionable Amended Claims Were Sent to the
          Examination Function for Scrutiny ............................................................... Page 9
                     Recommendation 3:........................................................ Page 11
          Considerable Interest Amounts Were Paid on Amended
          Claims ........................................................................................................... Page 11
                     Recommendation 4:........................................................ Page 12
          Some Delays Occurred in Processing Claims on
          Amended Returns.......................................................................................... Page 12
                     Recommendation 5:........................................................ Page 13

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 22
               Control Weaknesses Over Amended
        Returns Allowed Some Inappropriate Claims for the
           First-Time Homebuyer Credit to Be Allowed




                      Abbreviations

HERA            Housing and Economic Recovery Act of 2008
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
WHBAA           Worker, Homeownership, and Business Assistance Act of 2009
                           Control Weaknesses Over Amended
                    Returns Allowed Some Inappropriate Claims for the
                       First-Time Homebuyer Credit to Be Allowed




                                           Background

The First-Time Homebuyer Credit (Homebuyer Credit) is a refundable tax credit available to
taxpayers who purchase a principal residence. In order to qualify, taxpayers cannot have owned
a principle residence at any time during the 3 years prior to the date they purchased their new
home. The Housing and Economic Recovery Act of 2008 (HERA)1 allowed qualifying
taxpayers who purchased a principal residence after April 8, 2008, and before July 1, 2009, to
claim a credit equal to 10 percent of the purchase price of the home, limited to $7,500. The
Homebuyer Credit, as expressed in this Act, served as an interest-free loan to be paid back over a
15-year period beginning 2 years after the Credit was claimed and phased out for taxpayers with
adjusted gross income of more than $75,000 ($150,000 for joint returns).
Section 1006 of the American Recovery and Reinvestment Act of 2009 (Recovery Act)2 revised
and extended the Homebuyer Credit to include purchases made on or after January 1, 2009, and
before December 1, 2009; increased the maximum Credit to $8,000; and eliminated the
repayment requirements as long as the taxpayer retains the residence for 36 months.
The Worker, Homeownership, and Business Assistance Act of 2009 (WHBAA),3 signed into law
on November 6, 2009, extended and expanded the Homebuyer Credit allowed by the previous
Acts. Under the WHBAA, an eligible taxpayer must buy, or enter into a binding contract to buy,
a principal residence on or before April 30, 2010, and close on the home by June 30, 2010. The
law maintained that the taxpayer would not be required to repay the Homebuyer Credit and kept
the maximum amount at $8,000. The law increased the Homebuyer Credit phase-out to adjusted
gross income of more than $125,000 ($225,000 for joint returns), established documentation
requirements for claiming the Credit, and gave the Internal Revenue Service (IRS) the authority
to deny taxpayer claims that are inconsistent with the eligibility for the Credit. Legislation
enacted in July 2010 extended the closing deadline from June 30 to September 30, 2010, for
eligible homebuyers.4
Congress estimated that $13.6 billion would be paid to taxpayers for the Homebuyer Credit in
the HERA. The Joint Committee on Taxation estimated that approximately $4.3 billion more
would be paid to first-time homebuyers in Fiscal Years 2009 and 2010 as a result of the
Recovery Act and an additional $9.96 billion as a result of the WHBAA.




1
  Pub. L. No. 110-289, 122 Stat. 2654 (2008).
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
3
  Pub. L. No. 111-92, 123 Stat 2984 (2009).
4
  Homebuyer Assistance Act of 2010, Pub. L. No. 111-198, 124 Stat. 1356.
                                                                                           Page 1
                           Control Weaknesses Over Amended
                    Returns Allowed Some Inappropriate Claims for the
                       First-Time Homebuyer Credit to Be Allowed



The President of the United States has stated that every taxpayer dollar spent on the economic
recovery must be subject to unprecedented levels of transparency and accountability. The
President has called on Federal agencies to ensure that recovery funds are used for authorized
purposes and every step is taken to prevent instances of fraud, waste, error, and abuse. However,
with the various changes in the law, taxpayers may be confused regarding which version of the
Homebuyer Credit they qualify for, when to file, what tax year to file for, and what forms and
documentation to provide to claim the Credit. In addition, without proper controls, unscrupulous
individuals could make fraudulent claims for the refundable Homebuyer Credit.
Taxpayers have several filing options to claim the Homebuyer Credit, one of which is filing an
amended tax return. This report contains the results of our audit to determine whether the IRS
had controls in place to ensure that Homebuyer Credits claimed on Amended U.S. Individual
Income Tax Returns (Forms 1040X) were appropriately processed. The IRS reported that as of
January 29, 2011, it had processed more than 1.4 million amended claims for Homebuyer Credits
totaling more than $10 billion.
This review was performed onsite at the IRS Ogden, Utah, Campus5 during the period
February 2010 through March 2011. It included a review of amended individual income tax
returns filed nationwide. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed




                                Results of Review

The Internal Revenue Service Implemented Several Key Controls for
Processing Amended Homebuyer Credit Claims
The Homebuyer Credit was enacted, revised, and extended in four different legislative acts.
Each act created, added, and modified rules to qualify for and claim the Homebuyer Credit. The
IRS faced difficult and significant challenges to administer the Homebuyer Credit and ensure
that recovery funds were used for authorized purposes.
The IRS took the following steps to facilitate the accurate processing of Homebuyer Credits filed
on amended returns:
   •   Increased staffing resources to handle the significant number of Homebuyer Credit
       claims expected to be filed on amended returns.
   •   Organized staffing resources to address a significant number of telephone and
       correspondence inquiries expected for the Homebuyer Credit.
   •   Developed and updated employee instructions for processing Homebuyer Credit claims
       on amended returns.
   •   Implemented controls to process Homebuyer Credit claims on amended returns that
       would identify if the Credit was to be paid back.
   •   Updated forms and instructions necessary for taxpayers to claim the Homebuyer Credit,
       including the development of First-Time Homebuyer Credit and Repayment of the Credit
       (Form 5405).
Early in 2009, the Treasury Inspector General for Tax Administration (TIGTA) identified
thousands of taxpayers with indications of prior home ownership claiming the Homebuyer Credit
on their original tax returns, and recognized that this same condition would likely occur as
taxpayers claimed Homebuyer Credits using amended returns. In April 2009, we recommended
that the IRS implement controls to ensure that taxpayers claiming Homebuyer Credits on
amended tax returns had not owned a principal residence within the prior 3 years.
The IRS agreed with our recommendation and stated that it was already in the process of
developing criteria to identify amended returns with questionable claims for the Homebuyer
Credit for review by the Examination function. The IRS requested and was provided specific
cases and details of our criteria for identifying questionable claims for the Credit. The IRS’s
criteria were incorporated into the Internal Revenue Manual in June 2009.

                                                                                            Page 3
                            Control Weaknesses Over Amended
                     Returns Allowed Some Inappropriate Claims for the
                        First-Time Homebuyer Credit to Be Allowed



Along with the criteria in the Internal Revenue Manual, the IRS developed an enhancement to its
automated tool used to process amended tax returns (xClaim). The tool was enhanced to
automate research of IRS records for indications of prior home ownership over the past 3 years
and other predetermined criteria that, if present, make the claim questionable. The IRS reported
that the research results will be forwarded to the Campus Examination function along with the
amended tax return, using the Correspondence Imaging System. In the interim, the Examination
Classification function reviewed all Homebuyer Credit claims referred to them by the
Submission Processing function for indications of prior home ownership.
This report discusses several issues for Homebuyer Credit claims made on amended returns that
the IRS had not addressed.
Some Taxpayers Changed Their Home Acquisition Dates to
Inappropriately Take Advantage of New Tax Law Changes
We identified a number of amended claims for Homebuyer Credits where the reported purchase
dates of the homes were changed from what was reported on the original tax returns. The IRS
implemented controls to enter specific codes when adjusting a taxpayer account claiming a
Homebuyer Credit on an amended return that would identify the reported year of purchase.
We identified 1,225 cases with the following characteristics:
    •   The taxpayer filed a claim for the Homebuyer Credit on an original Tax Year6 2008
        U.S. Individual Income Tax Return (Form 1040) using a Calendar Year 2008 purchase
        date as entered from Form 5405.
    •   The IRS subsequently processed an amended return for the taxpayer claiming a change to
        the original Homebuyer Credit with an identifier now indicating a Calendar Year 2009 or
        2010 purchase year.
As mentioned earlier, the Homebuyer Credit enacted under the HERA served as an interest-free
loan to be paid back over a 15-year period. Subsequent legislation modified the Homebuyer
Credit and eliminated the repayment requirement for purchases made after December 31, 2008,
as long as the taxpayer retains the residence for 36 months. Changing the year of purchase
clearly benefitted taxpayers as they would now not be liable for the repayment of the total
amounts received for the Homebuyer Credits.




6
 For most individual taxpayers, a tax year is synonymous with a calendar year. For the purposes of this report, we
use tax year when referring to the filing of a tax return and calendar year when referring to home purchase dates.
                                                                                                           Page 4
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



We reviewed a judgmental sample of 43 of the 1,225 amended claims for the Homebuyer Credit
and identified the following:
   •   22 claims (51 percent) appeared to be legitimate changes of purchase years based on
       information we researched and obtained from third-party sources. However, only four of
       these taxpayers provided documentation with their amended return to support their
       amended date of purchase. The taxpayers generally stated the reason for filing the
       amended claim was that they originally reported or used the wrong purchase date on
       Form 5405 or originally listed the date of their construction loan and not the closed or
       occupied date. All of these taxpayers filed for and received original Homebuyer Credits
       using apparently incorrect purchase dates.
   •   15 claims (35 percent) appeared to be invalid changes of purchase years based on
       information we researched and obtained from third-party sources. None of these
       taxpayers provided documentation with their amended return to support their amended
       date of purchase. The taxpayers generally stated the reason for filing the amended claim
       was to claim the Tax Year 2009 Homebuyer Credit and that they had originally claimed
       the wrong credit, or they provided no explanation at all.
       Our research identified that 10 of the taxpayers appeared to purchase a home in Calendar
       Year 2008. All of these taxpayers inappropriately changed the year of purchase so that
       they would not be subject to the repayment provisions applicable to Calendar Year 2008
       purchases. According to the third-party records included in our research, the other **1**
       taxpayers did not have qualifying home purchases under either the HERA or the
       Recovery Act. Four of the taxpayers had no record of owning or purchasing a home and
       ***************************1**************************.
   •   6 claims (14 percent) were incorrectly processed by IRS employees. All six of these
       claims were amended by the taxpayers just to increase the amounts of their Homebuyer
       Credits. The taxpayers did not change their purchase dates from the dates originally
       reported, but IRS employees mistakenly changed the codes on the taxpayers’ accounts to
       indicate a Calendar Year 2009 or 2010 purchase year rather than the correct Calendar
       Year 2008 purchase. Therefore, these taxpayers’ accounts now incorrectly indicate that
       the taxpayers are not liable to repay their Homebuyer Credits. The IRS also incorrectly
       allowed an additional amount of Homebuyer Credit on four of these returns.
We identified an additional 607 cases with the following characteristics:
   •   The taxpayer’s Homebuyer Credit was originally claimed on an amended return reporting
       a home purchased in Calendar Year 2008.
   •   A subsequent amended Homebuyer Credit claim was processed with an identifier
       indicating a Calendar Year 2009 or 2010 home purchase.


                                                                                         Page 5
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



We reviewed a judgmental sample of 45 of these amended claims for the Homebuyer Credit and
found:
   •   36 claims (80 percent) for which the year of purchase from the taxpayer’s first amended
       return was recorded inaccurately by the IRS. These taxpayers filed amended returns to
       increase the amounts of their Homebuyer Credits, and only when the amended return was
       processed was the year of purchase corrected.
          o 18 of the original amended returns were processed before the IRS’s computers
            were programmed to recognize any purchase year other than Calendar Year 2008.
            (The IRS also incorrectly allowed four of these taxpayers the Homebuyer Credit
            when they indicated the purchase of the home would take place in the future).
          o 18 of the original amended returns were processed incorrectly by IRS employees.
            The employees entered identifiers indicating a Calendar Year 2008 purchase year
            when the taxpayer had actually indicated a Calendar Year 2009 or 2010 purchase
            year. ***************************1********************************
            *****************************************************************
            ******.
   •   9 claims (20 percent) for which the taxpayer amended the year of purchase. The
       taxpayers generally stated that the reason for filing the amended claim was that they were
       claiming the Calendar Year 2009 Homebuyer Credit, originally reported the wrong date,
       or originally listed the date of their construction loan and not the closed or occupied date.
       ****************************************1****************************
       *********1*********************. We found from research of third-party
       information that six taxpayers appeared to purchase a home in Calendar Year 2009. We
       could not obtain information for the remaining three claims.
Prior to enactment of the WHBAA, taxpayers were required to submit only Form 5405 with their
return to claim the Homebuyer Credit. Form 5405 included a specific line to list the date the
home was acquired. Effective for homes purchased after November 6, 2009, the WHBAA
requires taxpayers to submit valid documentation to support the Homebuyer Credit claim. Along
with Form 5405, taxpayers must attach a copy of the settlement statement showing certain
information about the home purchased, including the date of purchase. Without proper
documentation attached to the amended return listing the purchase date of the home, IRS
employees had to rely on information provided by and attested to by the taxpayer.
We notified the IRS that some taxpayers were changing the year of purchase when filing an
amended return for the Homebuyer Credit and there appeared to be no control to address these
cases. As of March 29, 2010, the IRS issued additional instructions to its employees for
processing amended tax returns to potentially identify claims filed for the Homebuyer Credit
where the year of purchase was changed. In addition, it developed enhancements to the xClaim

                                                                                             Page 6
                         Control Weaknesses Over Amended
                  Returns Allowed Some Inappropriate Claims for the
                     First-Time Homebuyer Credit to Be Allowed



tool to address these amended returns. The IRS also indicated that subsequent to our review, it
referred 166 of these cases to its Examination function for further scrutiny.
The Homebuyer Credits on all of the 1,225 and 607 taxpayer accounts have now been coded as
exempt from repayment. In our samples, 27 percent of these accounts (24 of 88) were coded in
error. The combined amounts of the Credits on the original and subsequent amended returns
totaled $14.1 million. Our samples in this audit test were not statistically valid and cannot be
projected to the population overall with any statistical reliability. However, if the results of our
samples are representative of the rest of the population, $3.8 million in Credits will have been
recharacterized from interest-free loans to a nonrepayable refundable credit for these taxpayers in
error.
Recommendation
Recommendation 1: The Director, Reporting Compliance, Wage and Investment Division,
should identify those amended claims that changed the purchase year of the home and initiate
post-refund examinations to ensure refunds for the invalid claims are recovered or the
Homebuyer Credit is correctly classified. The TIGTA has provided the IRS with details on the
cases previously described.
       Management’s Response: IRS management agreed with this recommendation. An
       established method is in place to verify the actual purchase date of a home using
       third-party records. Claims for the Homebuyer Credit with purchase date inconsistencies
       will be considered for the post-refund examination pool.
Some Taxpayers Received Multiple Homebuyer Credits That
Exceeded the Amounts Allowed by Law
A number of taxpayers received Homebuyer Credits in more than 1 tax year. We identified
70 taxpayers who received a Homebuyer Credit for both Tax Years 2008 and 2009. Of the
70 taxpayers, we found:
   •   10 taxpayers (14 percent) received Homebuyer Credits as claimed on their original Tax
       Year 2008 return, then claimed second Homebuyer Credits on amended tax returns,
       which were processed and allowed by the IRS. The Homebuyer Credits totaled more
       than the $8,000 maximum allowed by law for 7 of the 10 taxpayers and less than the
       $8,000 maximum for the other 3 taxpayers. However, the 3 taxpayers did not appear to
       be entitled to the additional amount of Homebuyer Credit. All but **1**of the 10




                                                                                             Page 7
                            Control Weaknesses Over Amended
                     Returns Allowed Some Inappropriate Claims for the
                        First-Time Homebuyer Credit to Be Allowed



         taxpayers received all refund amounts with no subsequent IRS scrutiny. ***1******
         *********************************1***************************.7
    •    **1** taxpayers (31 percent) filed amended returns claiming the same Homebuyer Credit
         for both Tax Years 2008 and 2009. The Credits were processed by the IRS for both
         years. The Homebuyer Credits totaled more than the $8,000 maximum allowed by law
         for all of these **1** taxpayers.
         Of the **1** duplicate claims processed in error:
             o **********************1*************************************.
             o 12 taxpayers returned the refund checks or paid back the duplicate Credit.
             o 5 taxpayers’ Credits were reversed, creating a balance due on the taxpayers’
               accounts.
             o The remaining 4 taxpayers received all refund amounts with no subsequent IRS
               actions.8
    •    16 taxpayers (23 percent) filed only 1 amended return but IRS employees mistakenly
         applied the same Homebuyer Credit to 2 tax years.
             o 9 of these taxpayers returned one refund check or paid the refund amount back to
               the IRS.
             o 3 taxpayers’ Credits were reversed, creating a balance due on the taxpayers’
               accounts.
             o The remaining 4 taxpayers received all refund amounts with no subsequent IRS
               actions.
Because source documents were not available, we could not determine the reason the remaining
**1** cases received Homebuyer Credits in 2 consecutive years. We made multiple attempts to
obtain these source documents.
IRS employees did not perform adequate research when processing these amended claims for the
Homebuyer Credit, or simply processed the claims incorrectly. As a result, these taxpayers, and
possibly more, received erroneous refunds.




7
  Subsequent to our review, the IRS reversed the Credits on five of these accounts, creating a balance due on the
taxpayers’ accounts.
8
  Subsequent to our review, the IRS reversed all four of these Credits, creating a balance due on the taxpayers’
accounts.
                                                                                                             Page 8
                           Control Weaknesses Over Amended
                    Returns Allowed Some Inappropriate Claims for the
                       First-Time Homebuyer Credit to Be Allowed



Recommendation
Recommendation 2: The Director, Reporting Compliance, Wage and Investment Division,
should identify those taxpayers who received multiple Homebuyer Credits and initiate
post-refund examinations to ensure the refunds are valid and any questionable refunds are
recovered. The TIGTA has provided the IRS with details on the cases previously described.
        Management’s Response: IRS management agreed and has taken significant steps
        to strengthen controls and reduce risks of duplicate/erroneous refunds. The IRS has
        implemented an unpostable check and filters to screen original and amended returns for
        pre-refund examinations to prevent duplicate/erroneous Homebuyer Credit refunds. Of
        the 739 taxpayers the TIGTA identified as receiving duplicate credit for both Tax Years
        2008 and 2009, 59 were adjusted/reversed, ********1*********************, and the
        remaining 12 were referred to the Examination function for appropriate action.
Not All Questionable Amended Claims Were Sent to the Examination
Function for Scrutiny
For qualifying homes purchased in Calendar Year 2008, the Homebuyer Credit could be claimed
on an original filed Tax Year 2008 individual income tax return or by amending a Tax Year 2008
return using Form 1040X. For qualifying homes purchased in Calendar Years 2009 or 2010, the
Homebuyer Credit could be claimed on an original filed Tax Year 2008,10 2009, or 2010 return,
or taxpayers could elect to amend their prior year tax return using Form 1040X. Amending the
prior year tax return allows taxpayers to claim the Homebuyer Credit for a home purchased in
Calendar Year 2009 or 2010 without waiting to claim it on their Tax Year 2009 or 2010 return.
The IRS developed specific criteria to identify questionable claims for Homebuyer Credits on
amended returns and implemented controls to apply these criteria during processing of the
amended returns. The IRS reported that the controls were implemented on June 10, 2009. The
controls were designed, in part, to identify taxpayers who had indications of home ownership
within the last 3 years and route these returns to the Examination function for further scrutiny.
We found that the IRS’s criteria to identify cases for Examination scrutiny overlooked certain
cases. The Recovery Act increased the maximum Credit provided in the HERA from $7,500 to
$8,000 and eliminated the requirement to repay the Credit. Some taxpayers who originally
claimed the $7,500 repayable credit amended their returns to claim the additional $500, which
also changed their Credit from repayable to nonrepayable. Many of these taxpayers amended the
purchase dates of their homes, which was discussed earlier in this report. ****2(f)****

9
  Preliminary data provided to the IRS contained **1**cases. During in-depth review of the data, TIGTA
eliminated **1** cases and, therefore, referred to only **1** cases in our report.
10
   Homes purchased in Calendar Year 2009 before the Tax Year 2008 return was filed could be treated as purchased
in Calendar Year 2008 and claimed on an original Tax Year 2008 return.
                                                                                                         Page 9
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



*************************************2(f)********************************
***************************************2(f)****************************
***************************2(f)********************. We brought this oversight to the
IRS’s attention, and they took immediate corrective action to address the issue.
To determine whether all questionable claims on amended returns meeting the IRS’s criteria
were identified and reviewed, we selected a statistically valid sample of 379 Forms 1040X
(206 processed before the IRS’s criteria were implemented, and 173 processed after the criteria
were implemented).
Of the 206 amended returns processed prior to the implementation of the criteria, we found that
none of the 64 cases that would have met Examination criteria, based on prior home ownership,
had been examined. The average claim totaled $7,225. Based on our sample, we estimate that
an additional 4,385 amended claims received by the IRS prior to the implementation of the
criteria had indications of prior home ownership but were never examined. To address our issue,
the IRS informed us that it screened the claims made on amended returns prior to
implementation of the criteria and referred 7,911 cases to the Examination function for its
consideration. The Examination function agreed to include 2,872 returns in its post-refund
examinations. As of December 31, 2010, the IRS had conducted examinations on 904 taxpayers
where the Homebuyer Credit was not allowed as claimed. The amount of Homebuyer Credits
claimed on these amended returns for these 904 taxpayers totaled $6,408,930. Based on the
IRS’s examination results for amended Homebuyer Credit returns, we estimate the IRS can
recover an additional $2,837,534 in erroneous claims from 406 examinations where a final
determination was not made as of December 31, 2010.
Of the 173 amended returns processed after the implementation of the criteria, we found 50 with
indications of prior home ownership within the last 3 years (which should have met the criteria
for further scrutiny). However, 25 (50 percent) of these 50 were not identified as questionable
and/or not referred to the Examination function. The average claim for the Homebuyer Credit on
these 25 returns was $7,126. Based on our sample, we estimate that a total of 1,713 amended
returns processed between June 10, 2009, and October 31, 2009, met examination criteria but
were not appropriately referred to the Examination function for review.
The IRS believed the returns that were processed incorrectly in our sample were simply the
result of the learning curve associated with a new process. We performed follow-up tests to
determine whether this issue had improved as employees became more familiar with the process.
We selected an additional statistically valid sample of 346 Forms 1040X processed after
implementation of the criteria and processed after our original sample of 1040Xs. Although the
IRS employees’ identification of returns meeting examination criteria had improved, we still
found errors. Of the 346 amended returns, 175 had indications of prior home ownership within
the last 3 years (which should have met the criteria for further scrutiny). We found that
10 (6 percent) of these 175 were not identified as questionable and/or were not referred to the
Examination function. Although the IRS believed there would be a learning curve associated
                                                                                         Page 10
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



with the processing of these claims, it did not develop a quality review process specific to
Homebuyer Credits. Without proper controls to ensure questionable claims are scrutinized,
erroneous Credits will continue to be issued.
Recommendation
Recommendation 3: The Director, Submission Processing, Wage and Investment Division,
should ensure that employees are provided proper training for screening claims made on all
amended returns, particularly those involving new tax laws. Also, increased quality reviews of
the amended claims involving new processes should be performed to determine if employees
understand the new processes.
       Management’s Response: IRS management stated that they are already taking steps
       to ensure that employees are properly trained and that new processes are followed. For
       Tax Year 2010, training resources allocated to newly hired employees increased from
       2 to 5 weeks. Refresher training for permanent and returning employees was increased
       from 1 to 2 weeks. Training is also conducted throughout the year, whenever changes to
       procedures are issued, and includes procedures for screening claims.
Considerable Interest Amounts Were Paid on Amended Claims
The Recovery Act and the WHBAA allow taxpayers to treat homes they purchased in Calendar
Year 2009 or 2010 as if they were purchased in the prior year (for purposes of claiming
Homebuyer Credits) to allow for immediate use of the refunds associated with the Credits.
Taxpayers electing to accelerate the Homebuyer Credits could amend their Tax Year 2008
returns to claim the Credits for purchases made in Calendar Year 2009 or amend their Tax
Year 2009 returns for Calendar Year 2010 purchases if the Credits were not claimed on original
Tax Year 2009 returns. Neither law specifically addressed how interest on these amended claims
should be administered.
The Internal Revenue Code provides that interest shall be allowed and paid upon any
overpayment in respect of any internal revenue tax. The IRS determined that interest on
overpayments is mandatory unless specifically prohibited by law. Because no authority other
than the general interest rules as provided in the Internal Revenue Code was found, the IRS
determined taxpayers filing an amended claim for the Homebuyer Credit were entitled to interest
as provided for by law. When paying interest on an overpayment, any credit available for refund
is considered to originate as of the due date of the return for the tax year, generally April 15.
Interest is allowed on any overpayment from the later of the credit received (originated) date or
the return received date.
A taxpayer that timely filed his or her Tax Year 2008 return (on or before April 15, 2009) and
purchased a home in September 2009 can amend their Tax Year 2008 return and will be paid
interest on the amount of the Homebuyer Credit beginning April 15, 2009. Because the IRS

                                                                                          Page 11
                         Control Weaknesses Over Amended
                  Returns Allowed Some Inappropriate Claims for the
                     First-Time Homebuyer Credit to Be Allowed



considers April 15 as the date the Homebuyer Credit originated, they would pay interest
beginning 5 months before the actual purchase date or liability to the taxpayer even occurred.
We determined that the IRS paid more than $76 million in interest on adjustments made for more
than 580,000 amended claims related to the Homebuyer Credit through April 22, 2010. The
interest paid was in addition to the amounts claimed for the actual Homebuyer Credit.
We reviewed statistically valid samples of 486 amended returns claiming the Homebuyer Credit
processed through April 22, 2010. We determined the IRS paid an additional $22,332 in interest
to taxpayers in our samples for the time period before the actual purchase date or true liability to
the taxpayer occurred.
It was clear that Congress’ intent in allowing taxpayers to amend their prior years’ returns to
immediately claim Homebuyer Credits was to get the credit amounts to the taxpayers as soon as
possible. However, the law was silent regarding the payment of interest on these claims. We
agree with the IRS’s interpretation that interest on overpayments is mandatory unless specifically
prohibited in the law. However, payment of interest on a liability before it occurred seems
counterintuitive. Therefore, we believe the IRS should have sought clarification from Congress
with respect to its intent to pay interest on these claims.
Based on our samples, we estimate that on amended returns processed through April 22, 2010,
approximately $37 million in interest was paid on Homebuyer Credits before taxpayers had even
purchased their homes.
Recommendation
Recommendation 4: If future legislation allows taxpayers to amend prior year returns to take
advantage of a tax provision effective for the current year and does not address the payment of
interest, the Commissioner, Wage and Investment Division, should work with the Department of
the Treasury’s Office of Tax Policy to seek clarification in the law to allow for administration of
the provision in a manner that would avoid paying unnecessary interest.
       Management’s Response: IRS management agreed with this recommendation. If
       legislative history is unclear as to when Congress intends overpayment to exist for
       purposes of allowing interest on amended returns claiming a benefit, the IRS will consult
       with the Department of the Treasury’s Office of Tax Policy as to whether it should
       pursue a legislative clarification regarding the applicability of interest.
Some Delays Occurred in Processing Claims on Amended Returns
We analyzed Homebuyer Credit claims made on amended returns for indications of significant
processing delays. If amended returns are not processed within 45 days, interest must be paid to
the taxpayer on the amount of the claim until processing is completed on the return. If the return


                                                                                            Page 12
                             Control Weaknesses Over Amended
                      Returns Allowed Some Inappropriate Claims for the
                         First-Time Homebuyer Credit to Be Allowed



does not contain complete information necessary to process the claim, the time necessary to
correspond and receive this information from the taxpayer is not included in the 45 days.
We reviewed a statistically valid sample11 of 102 amended claims for the Homebuyer Credit to
determine if the claims were processed timely. For purposes of this test, we considered 45 days
to be timely and more than 75 days to be significantly delayed.
Of the 102 returns, we determined that 44 (43 percent) were processed timely. Those processed
timely had an average processing time of 39 days. We found 19 (19 percent) with significant
processing delays. However, seven of these cases were delayed primarily because the IRS had to
correspond with the taxpayers for missing information. The remaining 12 cases were delayed in
IRS functions, and 10 of these 12 cases were delayed, at least in part, because the Examination
function waited for Examination employees to make a determination to audit the claims or accept
the claims as filed and return them to the Accounts Management function for processing.
We found that 9 of the **1** cases were not audited and were referred back for processing.
*******************************************1**********************************
***************1************************.12 Overall, these **1**cases remained in the
Examination function an average of 81 days before a determination was made to audit or not
audit the Homebuyer Credit claims. One-half of these cases remained in Examination for more
than 90 days.
The Examination function’s procedures call for cases referred from the Accounts Management
function to be selected for audit or returned to the Accounts Management function within
14 days. Untimely processing of cases results in unnecessary interest payments and increased
burden on taxpayers whose refunds are delayed.
Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should ensure that
timeliness standards are adhered to for the screening and classification of cases referred to the
Examination function from the Accounts Management function.
           Management’s Response: IRS management agreed with the recommendation and
           has guidelines in place in its Examination function for cases referred from the Accounts
           Management function. They will continue to ensure procedures are followed and will
           take appropriate action when the workload impacts their ability to adhere to the
           guidelines.




11
     This sample was valid for all amended returns processed between November 2009 and April 2010.
12
     ***************1*************************.
                                                                                                     Page 13
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS had controls in place to
ensure that Homebuyer Credits claimed on Amended U.S. Individual Income Tax Returns
(Forms 1040X) were appropriately processed. To accomplish our objective, we:
I.     Identified and evaluated processing procedures and controls for amended returns within
       the IRS return processing functions and determined whether those procedures and
       controls would identify, correct, or refer questionable claims for the Homebuyer Credit to
       the Examination function.
       A. Reviewed documented IRS procedures within the Submission Processing and
          Accounts Management functions developed to identify and process claims for the
          Homebuyer Credit on amended returns as well as identify and stop erroneous or
          questionable claims.
       B. Determined the specific program and filters that the IRS used to identify case work
          (including referral to the Examination function) for questionable claims for the
          Homebuyer Credit filed on amended returns.
       C. Discussed with IRS personnel the controls, programs, and procedures in place to
          identify and prevent questionable claims for the Homebuyer Credit on amended
          returns. We determined the criteria used for either working the amended claims or
          referring the work to the Examination function.
       D. Determined whether there were any quality control reviews performed for
          identifying, working, or referring questionable claims for the Homebuyer Credit on
          amended returns, and assessed whether those reviews were adequate.
       E. Determined the documentation required for taxpayers to support their claims for the
          Homebuyer Credit.
II.    Identified and evaluated the Examination function procedures and controls to ensure
       inappropriate claims for the Homebuyer Credit on amended returns are examined and
       corrected.
       A. Reviewed documented procedures and controls designed to identify and work
          erroneous claims for the Homebuyer Credit on amended returns.
       B. Determined whether adequate information is provided by the taxpayer and/or by other
          IRS functions making amended Homebuyer Credit claim referrals to allow

                                                                                         Page 14
                            Control Weaknesses Over Amended
                     Returns Allowed Some Inappropriate Claims for the
                        First-Time Homebuyer Credit to Be Allowed



             Examination function personnel to determine sufficient and appropriate resolution of
             the amended claims.
        C. Determined whether there were any quality control reviews performed for
           identifying, working, or resolving questionable claims for the Homebuyer Credit on
           amended returns, and assessed whether those reviews were adequate.
III.    Identified taxpayers filing amended returns claiming the Homebuyer Credit, and
        evaluated whether controls identified, stopped, and corrected erroneous claims.
        A. Worked with TIGTA Information Services programmers to develop a computer
           program to identify taxpayers claiming the Homebuyer Credit on their Tax Year 2008
           return and on amended returns filed for their Tax Year 2008, 2009, or 2010 return.
           The records were obtained from the IRS Master File.1 We validated the data received
           by comparing 30 records to IRS Master File data.
        B. Worked with TIGTA Information Services programmers to develop a computer
           program to match taxpayers filing an amended return identified in Step III.A. with
           data from returns on the Individual Return Transaction File2 indicating prior home
           ownership. We validated the data received by comparing 30 records to IRS Master
           File data. From a population of 25,970 claims, we selected and reviewed a
           statistically valid sample3 of 379 claims for indications that the return was identified
           for meeting examination criteria and was forwarded to the Examination function for
           further scrutiny. From a subsequent population of 3,395 claims, we selected and
           reviewed a statistically valid sample4 of 346 claims for indications that the return was
           identified for meeting examination criteria and was forwarded to the Examination
           function for further scrutiny.
        C. We used data from the files received from TIGTA Information Services employees to
           identify 1,225 taxpayers who claimed the Homebuyer Credit indicating a Calendar
           Year 2008 purchase on their original Tax Year 2008 return filed electronically and
           who then filed an amended return claiming the Homebuyer Credit indicating a




1
  The IRS database that stores various types of taxpayer account information. This database included individual,
business, and employee plans and exempt organizations data.
2
  The IRS computer file containing individual tax return data.
3
  The statistical sample size was selected by using a 95 percent confidence level, a ±5 percent precision, and a
50 percent expected error rate.
4
  The IRS believed the returns that were processed incorrectly in our original sample were simply the result of the
learning curve associated with a new process. We performed follow-up tests to determine whether this issue had
improved as employees became more familiar with the process. The statistical sample size was selected by using a
95 percent confidence level, a ±5 percent precision, and a 50 percent expected error rate.
                                                                                                           Page 15
                            Control Weaknesses Over Amended
                     Returns Allowed Some Inappropriate Claims for the
                        First-Time Homebuyer Credit to Be Allowed



             Calendar Year 2009 or 2010 purchase. We selected and reviewed a judgmental
             sample5 of 43 of these claims to determine why the year of purchase was changed.
         D. We used data from the files received from TIGTA Information Services employees to
            identify 607 taxpayers who claimed the Homebuyer Credit on an amended return
            indicating a Calendar Year 2008 purchase with a subsequent amended return claiming
            the Homebuyer Credit indicating a Calendar Year 2009 or 2010 purchase. We
            selected and reviewed a judgmental sample6 of 45 of these claims to determine why
            the year of purchase was changed.
         E. Conducted research through third-party sources to verify if the Homebuyer Credits
            identified may have been legitimately claimed by the taxpayers.
IV.      Identified and evaluated IRS controls over interest paid to taxpayers who claim the
         Homebuyer Credit on amended returns.
         A. Researched the Internal Revenue Code, applicable laws, and IRS procedures related
            to paying interest on amended returns with Homebuyer Credit claims.
         B. Worked with TIGTA Information Services programmers to develop a computer
            program to identify taxpayers claiming the Homebuyer Credit on amended returns
            and related interest and refund transactions. We validated the data received by
            comparing 30 records to IRS Master File data.
         C. Selected and reviewed a statistically valid sample7 of 384 of the population of
            409,386 amended claims processed through October 31, 2009, to determine the
            amount of interest paid, how long it took the IRS to process the return, whether there
            were indications of significant processing delays, and whether the claims were
            questionable.
         D. Selected and reviewed an additional statistically valid sample8 of 102 of an additional
            population of 329,982 amended claims processed from November 1, 2009, through
            April 22, 2010, to determine the amount of interest paid, how long it took the IRS to
            process the return, whether there were indications of significant processing delays,
            and whether the claims were questionable.



5
  We used a judgmental sample because we did not intend to project the results of this sample to the entire
population.
6
  We used a judgmental sample because we did not intend to project the results of this sample to the entire
population.
7
  The statistical sample size was selected by using a 95 percent confidence level, a ±5 percent precision, and a
50 percent expected error rate.
8
  The statistical sample size was selected by using a 95 percent confidence level, a ±10 percent precision, and a
50 percent expected error rate.
                                                                                                             Page 16
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



       E. Determined from our samples whether the amount of interest paid was congruent with
          the law and in a manner that was fair and equitable to taxpayers.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices related to the processing of amended returns and the identification of erroneous claims
for the Homebuyer Credit filed on amended returns.




                                                                                          Page 17
                       Control Weaknesses Over Amended
                Returns Allowed Some Inappropriate Claims for the
                   First-Time Homebuyer Credit to Be Allowed



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Kyle D. Bambrough, Lead Auditor
Doug C. Barneck, Auditor
David M. Bueter, Auditor
Levi J. Dickson, Auditor
Victor A. Taylor, Auditor
Michele S. Cove, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist




                                                                                    Page 18
                      Control Weaknesses Over Amended
               Returns Allowed Some Inappropriate Claims for the
                  First-Time Homebuyer Credit to Be Allowed



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                               Page 19
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Actual; $6,408,930 of amended First-Time Homebuyer Credits
    claimed by 904 taxpayers was disallowed in post-refund examinations (see page 9).
Methodology Used to Measure the Reported Benefit:
The IRS developed specific criteria to identify questionable claims for Homebuyer Credits on
amended returns and implemented controls to apply these criteria during processing of the
amended returns. The controls were designed, in part, to identify taxpayers who had indications
of home ownership within the last 3 years and route these returns to the Examination function for
further scrutiny. Our audit tests identified amended returns that were processed prior to the
implementation of the criteria, but were not appropriately referred to the Examination function
for review.
To address our issue, the IRS screened claims made on amended returns prior to implementation
of its criteria and agreed to include 2,872 returns in its post-refund examinations. As of
December 31, 2010, the IRS had conducted examinations on 904 taxpayers and disallowed the
Homebuyer Credit. The amount of Homebuyer Credits claimed on the amended returns for these
904 taxpayers totaled $6,408,930.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $2,837,534 of erroneous refunds to 406 taxpayers
    claiming amended First-Time Homebuyer Credits (see page 9).
Methodology Used to Measure the Reported Benefit:
The IRS developed specific criteria to identify questionable claims for Homebuyer Credits on
amended returns and implemented controls to apply these criteria during processing of the
amended returns. The controls were designed, in part, to identify taxpayers who had indications
of home ownership within the last 3 years and route these returns to the Examination function for
further scrutiny. Our audit tests identified amended returns that were processed prior to the
implementation of the criteria but were not appropriately referred to the Examination function
for review.

                                                                                          Page 20
                        Control Weaknesses Over Amended
                 Returns Allowed Some Inappropriate Claims for the
                    First-Time Homebuyer Credit to Be Allowed



To address our issue, the IRS screened claims made on amended returns prior to implementation
of its criteria and agreed to include 2,872 returns in its post-refund examinations. As of
December 31, 2010, the IRS had open examinations on 842 of these taxpayers without a final
determination being made.
We determined the average amount of Homebuyer Credit claimed on the amended returns for
these 842 taxpayers was $6,989. The IRS’s examinations of amended returns have resulted in
48.21 percent of Homebuyer Credit claims being disallowed through December 31, 2010. Using
these examination results, multiplying 0.4821 by the 842 taxpayers with open examinations, we
estimate the IRS will disallow the Homebuyer Credit on an additional 406 returns. By
multiplying the 406 returns with disallowed claims by the $6,989 average claim, we estimate the
IRS can recover $2,837,534 in erroneous claims from these examinations.




                                                                                       Page 21
           Control Weaknesses Over Amended
    Returns Allowed Some Inappropriate Claims for the
       First-Time Homebuyer Credit to Be Allowed



                                                    Appendix V

Management’s Response to the Draft Report




                                                         Page 22
       Control Weaknesses Over Amended
Returns Allowed Some Inappropriate Claims for the
   First-Time Homebuyer Credit to Be Allowed




                                                    Page 23
                          Control Weaknesses Over Amended
                   Returns Allowed Some Inappropriate Claims for the
                      First-Time Homebuyer Credit to Be Allowed



                                                                                               Attachment

RECOMMENDATION 1:
The Director, Reporting Compliance, Wage and Investment Division, should identify the amended claims
that changed the purchase year of the home and initiate post-refund examinations to ensure refunds for the
invalid claims are recovered or the Homebuyer Credit is correctly classified. The TIGTA has provided the
IRS with details on the cases described above.

CORRECTIVE ACTION:
We agree with this recommendation. The IRS has an established method in place, using third-party
public property records, to verify the actual purchase date of a home for individuals for claimed the First
Time Homebuyer Credit (FTHBC). Claims with purchase date inconsistencies will be considered for the
post refund examination pool.

Implementation Date:
April 15, 2012

Responsible Official:
Director, Reporting Compliance, Wage and Investment Division
Director, Earned Income Tax Credit, Wage and Investment Division

Corrective Action Monitoring Plan
The IRS will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 2:
The Director, Reporting Compliance, Wage and Investment Division, should identify those taxpayers that
received multiple Homebuyer Credits and initiate post-refund examinations to ensure the refunds are
valid and any questionable refunds are recovered. The TIGTA has provided the IRS with details on the
cases described above.

CORRECTIVE ACTION:
We agree with this recommendation. The IRS has taken significant steps to strengthen controls and
reduce risks of duplicate/erroneous refunds. We have implemented an unpostable check and filters to
screen original and amended returns for pre-refund examinations to prevent duplicate/erroneous FTHBC
refunds. Of the 73 taxpayers the Treasury Inspector General for Tax Administration identified as
receiving a duplicate credit for both the 2008 and 2009 Tax Years, 59 were adjusted/reversed, and
***1*****. The 12 remaining cases have been referred to the Examination Function for appropriate
action by the implementation date indicated below.

Implementation Date:
October 15, 2011




                                                                                                   Page 24
       Control Weaknesses Over Amended
Returns Allowed Some Inappropriate Claims for the
   First-Time Homebuyer Credit to Be Allowed




                                                    Page 25
       Control Weaknesses Over Amended
Returns Allowed Some Inappropriate Claims for the
   First-Time Homebuyer Credit to Be Allowed




                                                    Page 26
